U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


                   BUREAU OF EXPORT
                     ADMINISTRATION

     Year 2000 Preparations Are Effective,
  But Additional Risk Mitigation Is Needed
        Inspection Report No. OSE-12551 / December 1999




                             Office of Systems Evaluation
U.S. Department of Commerce                                       Inspection Report OSE-12551
Office of Inspector General                                                   December 1999

ECASS is the software application BXA uses to route, process, and control export license
application and enforcement investigation information and is also used by the Central
Intelligence Agency and the Departments of Defense, Energy, State, and the Treasury . BCI is
essentially BXA’s local and wide-area network and supporting network infrastructure. CWCIMS
consists of a database that maintains declaration documents submitted by chemical producers.
ECASS and BCI support BXA’s two core business processes: licensing and enforcement.

BXA completed an agency-wide BCCP in January 1999, followed by detailed BCCPs for its
Office of Export Administration for core export licensing processes, and Office of Export
Enforcement for export enforcement processes. In addition, BXA has developed a Day One
strategy of actions to be executed in managing the critical century rollover period from
December 27, 1999, through January 7, 2000.

PURPOSE AND SCOPE OF INSPECTION

The purpose of our review was to reduce the risk of business interruptions due to the Y2K
century change by assessing actions taken by BXA and recommending practical risk mitigation
and contingency planning activities that could be executed in the time remaining before the
century change.

Our review was focused primarily on BXA’s BCCP and Day One plan, including the actions
taken and planned to prepare for the possibility that BXA may need to meet mission
requirements without benefit of the mission-critical systems that normally support core business
processes. Our scope also included a review of independent verification and validation (IV&V)
testing of BXA’s mission critical systems for Y2K readiness. Our primary focus was the ECASS
and BCI systems because they were renovated and will be in operation at the century change.

Our methodology included evaluating documentation and interviewing staff within BXA’s Office
of Administration, Office of the Chief Information Officer, Office of Export Administration, and
Office of Export Enforcement. Our evaluation criteria were derived from General Accounting
Office (GAO) and Office of Management and Budget guidelines written specifically for the Y2K
computing crisis, research institutions, and best business practices.

Our work was performed in accordance with the Inspector General Act of 1978, as amended, and
the Quality Standards for Inspections, March 1993, issued by the President’s Council on
Integrity and Efficiency.

OBSERVATIONS AND CONCLUSIONS

Based on the successful renovation of its ECASS and BCI systems, and the development of
CWCIMS using Y2K compliant software, BXA reports that its mission-critical systems are Y2K
compliant. However, BXA needs to test its BCCP to ensure that core business functions can be
performed as planned in the event of a critical system failure.
                                               2
U.S. Department of Commerce                                         Inspection Report OSE-12551
Office of Inspector General                                                     December 1999

I. Successful Repair and Testing of Critical Systems

CWCIMS was developed with Y2K compliant software and hardware and will not become
operational until 2000; however, ECASS and BCI needed renovation to become Y2K compliant.
BXA renovated ECASS to use dates with 4-digit years and moved the renovated version to
production in January 1998. To make BCI compliant, BXA replaced three secondary servers,
renovated their primary file servers, purchased and installed two new central routers for its LAN,
migrated telecommunication lines, and determined that all WAN routers were Y2K compliant.
BXA initiated IV&V of ECASS, BCI, and CWCIMS in October 1998 and reported in July 1999
that all three mission-critical systems are Y2K compliant. Based on BXA’s renovation, future
date testing, IV&V contract, and production use of the renovated ECASS and BCI, it is
reasonable to expect that ECASS and BCI will continue to function after December 31, 1999.

II. BCCP Needs to be Tested

BXA developed a thorough BCCP identifying contingencies for performing core business
processes in the event that critical systems are not available. However, the agency has not tested
the BCCP to validate its contingency plans. Contingency plans are based primarily on alternative
manual processes. BCCP activities will be managed and executed by a Management Oversight
Team and a BXA Y2K Response Team. BXA has defined roles and assigned responsibilities.
Threats, risks, and vulnerabilities are addressed for each mission-critical BXA system and for
non-mission-critical systems. “Triggers” for activating contingency plans and minimum
acceptable levels of outputs and services during potential Y2K system failures have been
identified. BXA also developed detailed contingency plans for Export Enforcement
(enforcement process) and Export Administration (licensing process), and a Day One plan.

Even though agencies such as BXA have undertaken significant efforts to make their systems
Y2K compliant, there remains a risk that one or more mission-critical systems will fail and
severely affect the agency’s ability to deliver critical services. The Department requested all
bureaus to follow GAO’s BCCP guidance, which instructs agencies to develop potential Y2K
failure scenarios and “assume the loss of all mission-critical information systems due to post-
implementation failures or delays in renovation or testing.” The BCCP and Day One plan are
intended to reduce the risk that a Y2K failure will result in a business process failure. However,
the BCCP needs to be tested to validate that contingency plans will satisfy the agency’s needs.
Testing contingency plans, a major component of GAO’s BCCP guidance, was not addressed in
BXA’s BCCP. The plan does not document that any BCCP tests or plans for the Response
Team to rehearse the Day One plan have been conducted or are scheduled.

The objective of BCCP testing is to evaluate whether contingencies provide the desired level of
service to customers and can be implemented within a specified time. To prepare for BCCP
testing, BXA must define the necessary test conditions, tasks, and standards that are required to
validate that contingency service levels and implementation schedules are attainable. Rehearsals
should include the following elements:
                                                 3
U.S. Department of Commerce                                        Inspection Report OSE-12551
Office of Inspector General                                                    December 1999

l      Test conditions - Assume that ECASS is non-operational due to Y2K, and therefore, the
       Offices of Export Administration and Export Enforcement must function for the first
       week of the new year in a fully manual, paper-based mode of operation.
l      Test tasks - Implement manual processing for license applications. This should include
       (a) processing applications submitted electronically, (b) checking 5 to 10 years of
       historical records, (c) screening by the Treasury, and (d) referring applications to the
       Departments of State, Defense, Energy, and the Central Intelligence Agency. BXA
       should also rehearse the Day One plan with the Response Team.
l      Standards - Set levels of outputs and services and establish priorities. For example,
       expedite emergency treatment to those cases that affect public safety and health.
These “tests” of the BCCP should consist of rehearsals where members of the Response Team
and other necessary staff would walk through the steps of the plan as though a trigger for
contingency actions had been activated. The results of these tests should be used to update and
improve the BCCP and Day One plans, as appropriate.

BXA explained in our exit conference that it did not plan to test the BCCP because alternative
core business processing methods were employed within the last several years during furloughs.
However, during the furloughs, systems were not disabled as they may be entering Y2K.
Instead, there was a shortage of people to operate the systems. BXA officials also explained that
only export licenses submitted in paper format were processed during furloughs; however,
approximately 60 percent of BXA’s license applications are now submitted electronically.

RECOMMENDATION

To ensure the continuity of core business processes in the event of system failures associated
with the turn of the century, we recommend that the Under Secretary for Export Administration
validate the business continuity and contingency plans by conducting BCCP tests and rehearsing
the Day One plan with the Response Team.

       Synopsis of BXA’s Response

       BXA reiterated the comments made at the December 13, 1999 exit conference, and did
       not address the dissimilarities between previous furloughs and potential future Y2K
       disruptions. BXA cites prior experience in processing export licenses and enforcement
       actions manually. In 1996, federal employees were furloughed three times and BXA
       reverted to the manual processing of license applications. BXA contends that the current
       detailed BCCPs are based on BXA’s 1996 experiences, so BXA, in effect, has already
       tested the BCCP on three occasions, and each time it worked.

       BXA believes it would have taken longer than the few remaining work days in 1999 to set
       up the evaluation process outlined in our recommendation and run the test. BXA also

                                                4
U.S. Department of Commerce                                         Inspection Report OSE-12551
Office of Inspector General                                                     December 1999

       believes that any marginal gains from testing and updating the plan would not justify the
       resources that would be required.

       OIG Discussion

       We reaffirm our recommendation. We do not agree with the BXA view that operational
       activities in 1996 were analogous to a test of a plan which did not exist until 1999. Also,
       BXA does not specifically address our recommendation to rehearse the BXA Day One
       plan for a truly unique, one-time event, which has never been rehearsed.

       The BXA BCCP should have been tested and the Day One plan should have been
       rehearsed. This could have and should have been initiated by December 13, 1999. On
       that date, sufficient time was available to complete testing by December 27, 1999. In
       addition, BXA did not need our recommendation in order to conduct the tests and
       rehearsal. The August 1998 GAO guidelines identify testing as the final phase of business
       continuity and contingency planning’s four phases and are sufficient reason for testing
       the BCCP. GAO’s October 1999 guidance for Day One planning states that Day One
       plans and their key processes should be rehearsed.

BXA’s full response is included as Appendix A.




                                                5
U.S. Department of Commerce                                      Inspection Report OSE-12551
Office of Inspector General                                                  December 1999



                                     Appendix B
                              Acronyms Used in This Report

               BCCP           Business Continuity and Contingency Plan

               BCI            BXA Communications Infrastructure

               BXA            Bureau of Export Administration

               CWCIMS         Chemical Weapons Convention Information Management System

               ECASS          Export Control Automated Support System

               GAO            General Accounting Office

               IV&V           Independent Verification and Validation

               Y2K            Year 2000
